NO. 20-8403
IN THE SUPREME COURT OF THE UNITED STATES
DANIEL JACOB CRAVEN,
Petitioner,
v.

STATE OF FLORIDA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF FLORIDA

BRIEF IN OPPOSITION
TO PETITION FOR A WRIT OF CERTIORARI

Certificate of Service
I, Carolyn M. Snurkowski, a member of the Bar of this Court, hereby certify
that on this 23rd day of July 2021, a copy of the Respondent’s Brief in Opposition in
the above entitled case was furnished by United States mail, postage prepaid, to A.
Victoria Wiggins, Counsel of Record, Second Judicial Circuit of Florida, Office of the
Public Defender, 301 South Monroe Street, Suite 401, Tallahassee, Florida 32301,

Victoria.wiggins@flpd2.com.

21
Respectfully submitted,
ASHLEY MOODY
ATTORNEY GENERAL

 

CAROLYN M. SNURKOWSKI
Associate Deputy Attorney General
Florida Bar No. 158541

Counsel of Record

Michael T. Kennett
Assistant Attorney General

Office of the Attorney General

PL-01, The Capitol

Tallahassee, FL 32399-1050
Carolyn.Snurkowski@myfloridalegal.com
capapp@myfloridalegal.com

(850) 414-3300

COUNSEL FOR RESPONDENT

22
